                                 INSPECTION




 BUREAU OF LAND MANAGEMENT:
 MEADOWOOD EQUESTRIAN
 FACILITY




Report No.: ER-IS-BLM-003-2012   September 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                          SEP ,2 7 2012
Memorandum

To:            Michael J. Pool
               Acting Director, Bureau of Land Management

From:          Kimberly Elmore         .~ ~~
                                    !, ,.:_
               Assistant Inspectortle~;al for Audits, Inspections, and Evaluations

Subject:       Inspection- Bureau of Land Management: Meadowood Equestrian Facility
               Report No. ER-IS-BLM-0003-2012

       The Office of Inspector General conducted an inspection of the Bureau of Land
Management (BLM) Lower Potomac Station's Meadowood Equestrian Facility to determine if
BLM used the horse boarding fees collected for the intended purpose and if the existing services
contract provides adequate funds to maintain a safe and accessible equestrian facility.

       We determined that BLM used the horse boarding fees for the intended purpose under the
terms of the services contract, which includes daily operations to care for the horses. The horse
boarding fee structure, however, cannot sustain the current level of service provided over time
because of increasing operating costs and limited use of the facility.

        In addition, we found that the existing services contract was not designed to provide
funds to maintain an equestrian barn that complies with current safety or structural standards. In
May 2012, an environmental assessment concluded that the barn violates Federal and State
public use safety standards and poses risks to the health and safety of both horses and people.
The assessment provides BLM with several options, including closing the barn indefinitely.

        BLM officials told us that they have not determined when they will make a decision
regarding the facility. They have, however, set aside $800,000 in deferred maintenance funds
that could be used to renovate the barn. BLM officials have conducted extensive public outreach
and are reviewing the most recent input from the July 2012 public comment period.

Background

        The Meadowood facility' s horse boarding operation is the result of a unique situation on
BLM property. BLM, which is part of a National System of Public Lands that offers diverse
outdoor recreational opportunities including horseback riding, hiking, camping, hunting, boating,
mountain biking, and various winter sports, acquired the Meadowood property in 2001 through a
land exchange. In addition to 800 acres of land, the property contained an over 30-year-old horse
stable with related structures. At the time of the acquisition, the stable boarded only privately-




                        Office of Audits, Inspections, and Evaluations I Washington, DC
owned horses. The stable currently provides facilities for a therapeutic riding program and a
public riding lesson program, in addition to stabling privately-owned horses.

       A BLM contractor, CAS Company, working under a 5-year services contract (2010-
2015) currently provides on-site services (e.g., providing bedding and hay, and mending fences)
and runs the public riding lesson program. The services contract addresses the collection of horse
boarding fees for the purposes of covering daily costs and minor maintenance of the facility.

        There is a high level of local interest in the Meadowood facility and its future. In
November 2010, BLM held a public meeting and subsequently posted the meeting notes, press
release, draft environmental assessment, and related documents on its Web site. BLM conducted
an environmental assessment in May 2012 and opened a public comment period extended
through July 2012. Although BLM’s mission does not include provision for stabling privately
owned horses on Federal land, Bureau officials are sensitive to and aware of the public’s
concerns with regard to the Meadowood facility.

Findings

Long-Term Viability of Meadowood Horse Boarding Activities

        We found that a number of factors diminish the long-term prospects for sustained public
or private horse boarding at the Meadowood facility, which include increasing costs to manage
the barn and limited use of the facility.

         Under the terms of the services contract, private users pay $700 per month to board their
horses at the facility, and BLM pays subsidies to fulfill the monthly rate required by the services
contract to manage the facility. BLM spends the fees collected for the intended purpose of
providing daily operating needs for stabled horses, such as bedding, hay, dragging the indoor
arena, cutting surrounding fields, and mending fences. In addition, BLM also pays for barn
utilities, totaling approximately $8,500 per year. The current horse boarding fee structure,
however, outlined in the services contract does not cover BLM’s total cost for horse boarding
services.

        The services contract specifies a reduction in the number of horses each year and an
increase in BLM’s subsidy per horse to maintain the $700 monthly fee for private boarders. For
example, in 2010 (the contract base year), BLM paid subsidies for about 25 horses each month at
a cost of an extra $26 per horse. In 2011 (the first option year), BLM paid subsidies for about 20
horses each month, but at a rate of $64 per horse. The contract specifies both a maximum
number of horses and a subsidy amount paid by BLM per horse for each option year. Over a
period of 5 years, the number of horses boarded per month diminishes from 30 to 15, while
boarding costs escalate from $726 to $1,127 per month. Private boarders continue to pay the
$700 monthly fee while BLM pays the difference.

        According to BLM officials, various groups offer several local alternatives that provide
public and private horse boarding facilities and related activities. More than 65 stables operate
within a 50-mile radius of the Meadowood facility. We found that seven local horse boarding


                                                                                                    2
facilities in the surrounding area offer monthly boarding fees ranging from $375 to $925, with
the fee rate variation most likely depending on the quality of the facility and the amenities
provided.

Meadowood Barn Environmental Action Plan

        We found that the Meadowood equestrian barn does not meet current environmental and
safety standards, which exposes BLM to potential liability. The services contract requires the
contractor to maintain liability insurance for property damage, personal injury, and
comprehensive public liability for a minimum annual limit of $1 million. As the owner and
operator of the property, BLM could be held responsible under the Federal Tort Claims Act (28
U.S.C. § 2671 et seq.) for any additional liability.

       In April 2011, a structural evaluation requested by BLM was completed. The study
concluded that to bring the facility up to minimum standards would cost more than $500,000. In
May 2012, the environmental assessment report requested by BLM concluded that the
Meadowood barn structure poses risks to the health and safety of both horses and people.

       The report proposed that the barn structure be renovated within the existing footprint but
presented two additional options to—

       1. immediately close and demolish the barn structure but continue outdoor activities; or
       2. not perform any maintenance on the barn structure, resulting in its eventual closure to
          public access while use of the outdoor facilities could continue.

        According to BLM’s Eastern States director, barn renovations would render the barn
unusable for approximately 6 months. He told us that BLM is looking into moving horses to
temporary boarding, but this plan would require new contracts with the current users. BLM
officials acknowledged there is no guarantee that the current boarders or riding programs would
return to Meadowood after completion of the renovations.

Recommendations

       We recommend that BLM:

        1. Provide a decisionmaking timeline on the future of the Meadowood equestrian
           facility, taking into account the financial sustainability of the program and the health
           and safety risks if public use of the barn continues.

        2. Determine whether renovation or repair of the Meadowood equestrian barn is the
           best use of BLM’s deferred maintenance funds.

Scope and Methodology

        We focused the Meadowood equestrian barn inspection on the existing services contract
period that began in April 2010.


                                                                                                    3
        We performed our inspection in accordance with the Council of the Inspectors General
on Integrity and Efficiency “Quality Standards for Inspections” between June and September of
2012.We obtained and reviewed the current BLM Meadowood services contract, financial data
related to horse boarding fees collected over the last two years, and the most recent
environmental assessment for the equestrian barn published in May 2012. In addition, we visited
the Meadowood property and discussed the current status of the barn and its future with the BLM
eastern region state director, the chief of external affairs, and the acting field manager for the
Lower Potomac Station.

        Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, as well
as target dates and title(s) of the official(s) responsible for implementation. Please address your
response to:

                       Ms. Kimberly Elmore
                       Assistant Inspector General for Audits, Inspections, and Evaluations
                       U.S. Department of the Interior
                       Office of Inspector General
                       MS 4428 – MIB
                       1849 C St., NW.
                       Washington, DC 20240

      If you have any questions regarding this report, please do not hesitate to contact me at
202-208-5745.




                                                                                                  4
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
